HHS/OIG-Audit--"Summary Report On Public Health Service Contract Pre-Award Audits Conducted During Fiscal Year 1990, (A-02-90-02506)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Summary Report On Public Health Service Contract Pre-Award Audit Reports Issued During Fiscal Year 1990," (A-02-90-02506)
November 21, 1991
Complete
Text of Report is available in PDF format (833 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report covers our summarization of pre-award audit reports issued by the Office of Audit Services in Fiscal Year
1990 and the status of actions taken on prior recommendations in this area. Our review indicated that a majority of the
proposals we examined contained overstated or undocumented projected costs totaling approximately $105 million. We also
found that, for those pre-award reports resolved, the Public Health Service continues to sustain a significant amount of
the findings of overstated or otherwise unreasonable costs.